<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2017

                              ----------                              


                        THURSDAY, MARCH 10, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 10:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Cochran, Boozman, Capito, and 
Mikulski.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order. Mr. 
Administrator, welcome to the Commerce, Justice, Science 
Subcommittee hearing on the President's 2017 budget request for 
NASA. You are no stranger to the subcommittee.
    Last year, Congress provided NASA with $19.3 billion in the 
2016 omnibus that maintained a balanced space program, ensuring 
that NASA's priorities are able to move forward. We hoped at 
that time that this administration would leverage the solid 
financial foundation we provided to move forward on all of 
NASA's exploration goals, but I think that hope was short-
lived.
    The budget that NASA has presented to us claims to include 
a total funding level of $19 billion, but we have to look at 
this budget closely. This overall amount is achieved through a 
combination of discretionary spending and an unprecedented 
amount of funding disguised as mandatory spending, when it is, 
in fact, not actually mandatory.
    Since the budget roll out of February 9, NASA has used 
glossy rhetoric to mask the fact that $763 million of the 
agency's requested funding is offset by proposed tax increases, 
such as a new $10 tax on each barrel of imported oil, that 
Congress has not yet considered, nor do I expect that we ever 
will consider.
    The truth is that NASA's request is only $18.26 billion, a 
cut of $1 billion from what this subcommittee provided in the 
last fiscal year. These cuts, if enacted, would erode ongoing 
science missions, jeopardize core operations, and delay 
exploration launches.
    I am sure it is no coincidence that most of those proposed 
cuts target programs that are supported by this subcommittee 
and other members of Congress, in both chambers, and on both 
sides of the aisle.
    The simple fact, I believe, is this: that the 
administration prioritized funding elsewhere in the 
Government's budget, and it could not find enough discretionary 
funding to make NASA whole. Once again, NASA has failed to 
propose, I believe, a truthful budget that can accomplish the 
Agency's goals.
    In order to move forward in 2017, the subcommittee, I 
believe, must set aside those so-called ``mandatory spending 
gimmicks.'' Instead, we must provide honest funding that is 
necessary to advance our Nation's space program using 
discretionary spending that does not bust the budget caps 
agreed upon last fall.
    This proposed budget represents staggering reductions that 
would lead to a nearly $1 billion reduction to NASA's 
discretionary budget compared to last year. Those proposed cuts 
have both near-term and long-term implications, and if not 
corrected, will delay ongoing work and will drive up 
development costs, outcomes that this subcommittee has worked 
hard to avoid.
    I look forward particularly with concern at the consistent 
lack of support for NASA's human exploration efforts to go 
beyond low Earth orbit. The Space Launch System, SLS, is 
proposed to be cut by $770 million, and its crewed vehicle, 
Orion, would be cut by $217 million.
    In addition, the proposed funding and development path for 
SLS ensures that our next crewed exploration vehicles would not 
even meet NASA's far from ambitious target of launching in 
2023. Surprisingly, NASA has not proposed a single dollar for 
the development of the upper stage engine that is absolutely 
necessary for a crewed mission that is only 7 years away. The 
request will not allow NASA to stay current on its own Orion 
production and launch schedule.
    Administrator Bolden, you have traveled around the country 
in recent months touting NASA's strong support for the SLS and 
Orion missions, when in reality this budget will effectively 
delay any advancement in a NASA-led human mission to Mars or 
anywhere at all.
    Quite frankly, if this weak budget plan for exploration is 
what the administration calls ``strong support,'' I hate to 
imagine what the request would look like if there was only a 
professed marginal commitment from NASA.
    Other missions across NASA will also feel the detrimental 
consequences of this request level. Planetary science missions 
such as Mars Opportunity, Mars Odyssey, and Mars Express would 
be totally reliant on imaginary funding to continue operations, 
and therefore, effectively cancelled in this budget.
    Under this year's proposed budget request, the 
spectacularly successful New Horizons mission to Pluto, which 
had its mission extended, will essentially have to depend on a 
tax increase that has virtually no chance of being enacted.
    Even the recent high profile announcements of aeronautics 
experimental flight vehicles will become greatly dependent on 
budgetary gimmicks. Many other activities across NASA are open 
to additional risks caused by budgetary uncertainty.
    Both the Inspector General and the Government 
Accountability Office have cited the risk from funding 
uncertainty as a top chronic concern at NASA, and this budget 
has borne out those concerns even further. In fact, this budget 
creates more problems than it solves. I find it disturbing that 
NASA's true priorities are not better reflected in an honest 
budget.
    I look forward to hearing your views on these matters, and 
ask you to work with our subcommittee members to address our 
many concerns in the 2017 bill.
    Before I yield to our vice chairwoman, Senator Mikulski, I 
want to recognize that today is the last scheduled Commerce, 
Justice, and Science budget hearing for this year. This could 
be Senator Mikulski's final hearing as a member of this 
subcommittee, which she has helped to lead as chairwoman or as 
ranking member since 2005.
    Senator Mikulski, you have been a great champion for all of 
our Federal science agencies over many decades, especially 
NASA, and you have also served as a vigilant steward of how our 
tax dollars are spent.
    You have consistently challenged NASA to be better, and 
because of your leadership, NASA has better served America's 
drive for exploring space and making new discoveries.
    Extending the life of the Hubble Space Telescope, rebooting 
the James Webb Space Telescope construction, returning the 
Space Shuttle to flight after the Columbia accident, these are 
just some of the very important activities you fought so hard 
to achieve and did over the years.
    You are a true and valued partner, and it has been a great 
pleasure and honor to work along side you these many years. I 
look forward to one last year of writing this subcommittee's 
appropriations bill with you, and it is my hope that we can get 
NASA's budget right again this year.
    Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Shelby. I 
appreciate that warm introduction. Yes, this is my final 
scheduled hearing of what is now called the CJS Subcommittee. 
We are here to discuss the budget request of such an 
inspirational Agency, the National Aeronautics and Space 
Administration.
    I came to the Appropriations Committee in 1987 and was one 
of the first women to serve on this committee. Now, there are 
so many able women on both sides of the aisle who continue to 
serve.
    When I came to this committee, NASA was funded by the VA/
HUD Subcommittee--VA, HUD, and Independent Agencies. I wanted 
to be on the subcommittee because I so loved America's veterans 
and wanted to help them in any way that I could. I wanted to be 
on a subcommittee that funded HUD because I came from the 
gritty streets of Baltimore and had worked as a social worker, 
and I knew what a powerhouse HUD could be for economic 
development and job opportunity.
    Then there were those independent agencies, one called 
NASA. I did not know a lot about NASA. I knew we had the Space 
Telescope Science Institute in Baltimore. It was just the 
beginning of it. Of course, in my campaigns, I had come to hear 
about something called ``Goddard.'' Well, I have supported 
Goddard from early on to now, and it remains a fabulous place 
for the study of science.
    So, from VA/HUD to CJS, we have been here. I am so proud of 
the men and women that have worked here. Although I knew little 
about the space program, I certainly learned a lot to get 
started.
    Today, I am going to pay a special tribute to Senator Jake 
Garn. When I came to the VA/HUD subcommittee, it was chaired by 
Senator Garn, a Republican from Utah, a Senator who himself had 
flown into space. What a wonderful human being. He was gracious 
in his welcoming, and he was patient in his tutorial.
    Between he and John Glenn, I learned so much about the 
American space program and what it took to be great, not only 
to be a great agency, but how great men can make great things 
happen. Since then, we have had a bipartisan relationship.
    I am very grateful for what Senator Garn did and that I 
could work hand in hand with my colleague, Senator Bond. Then 
of course, there was the unique friendship that I was able to 
develop with Senator Kay Bailey Hutchison, as we put together 
our space coalition, and then you, Senator Shelby.
    We know each other from the Energy and Commerce Committee 
during our House of Representatives days. It was the incubator 
of Senators. Now, there were a lot of people on that committee. 
You saw rising stars. They were a lot more glamorous, they were 
on all the editorial boards, and they were on their way to be 
President.
    We were on our way to being very solid Senators, and we 
have had such a superb relationship. I appreciate again the 
gracious way that you have governed, my opportunity to get to 
know your wife, Annette, to get to know Huntsville, Alabama, 
the only community in America that has its own foreign policy, 
and if you have ever been to the air show, you know it.
    Because we have worked together, having this zone of 
civility and mutual respect, we have been able to achieve 
mutual accomplishments. I have been proud of this subcommittee. 
I am proud of the way we have helped transform the FBI, 
modernize the Weather Service, focus on violence against women, 
and make sure that we have more cops on the beat and that they 
have the right equipment.
    We fought waste and fraud from $5 meatballs and $16 bagels 
to reducing the patent backlog. We certainly have done a lot. 
We have seen great accomplishments and great challenges.
    When I came to the committee, it was just days away from 
the terrible, terrible Challenger accident. Yet, at the same 
time, whether it was the Challenger, whether it was the 
Columbia, of whether it was the Hubble Telescope that needed 
the most expensive contact lens in American history, we were 
able to solve those problems because we worked together.
    We have seen great discoveries, but I will tell you one of 
the greatest discoveries was getting to know the American space 
program, from the astronauts who dare to go where no one has 
ever gone before in order to deliver the greatest discoveries, 
to all those who work in space science and in aeronautics. I am 
particularly proud of them.
    I am grateful for the role that Maryland has played, from 
Goddard to APL, to the Space Telescope Institute, to Wallops. 
The greatest discovery has not only been what is out there, but 
the wonderful men and women who work right here.
    I look forward to hearing about your budget request. This 
is probably your last appearance here, and all I can say is may 
the force be with us.
    [Laughter.]
    Senator Shelby. Thank you, Senator Mikulski. Administrator 
Bolden, your written testimony will be made part of the record 
in its entirety, and you may proceed as you wish.

            SUMMARY STATEMENT OF HON. CHARLES F. BOLDEN, JR.

    Mr. Bolden. Thank you very much, Mr. Chairman, and members 
of the subcommittee. I am pleased to be here today to discuss 
with you President Obama's $19 billion fiscal year 2017 budget 
request for NASA.
    It has been my honor to serve as the NASA Administrator 
throughout the Obama administration, and as we submit what is 
likely my final budget, I am proud of the many things this 
agency has accomplished on behalf of the American people with 
the resources the President and the Congress have committed to 
us over the past 7 years.
    I also wish to personally join you, Mr. Chairman, in 
recognizing Senator Mikulski for her leadership and service in 
Congress, and her dedication to a robust, balanced, and 
bipartisan NASA program.
    Senator Mikulski, as I told you earlier, you will be sorely 
missed. Together, we have enabled our Nation to continue 
leading the world in space exploration and scientific 
discovery.
    Last week, American Astronaut Scott Kelly returned home 
from the International Space Station after 12 months working 
off the Earth for the Earth. His year in space will pay 
scientific and medical dividends for years to come, helping 
pave the way for future astronauts to travel to Mars and 
beyond. Commander Kelly significantly advanced our journey to 
Mars, and I trust you all join me in saluting his service to 
our Nation.
    NASA is closer to sending American astronauts to Mars than 
at any point in our history. This budget will keep us moving 
forward. The support of this subcommittee and Congress is 
essential to this journey. The International Space Station is 
the cornerstone of our exploration strategy.
    Thanks to the determination and ingenuity of American 
industry, we have returned Space Station cargo resupply 
launches to U.S. soil, insourced jobs, and helped establish a 
new private market in low Earth orbit.
    American companies are now providing supplies to our 
astronauts on the International Space Station from the United 
States with Orbital ATK, set to launch again later this month, 
and SpaceX, targeting a resupply mission in early April, both 
from the Kennedy Space Center. In July, Orbital will return to 
its home to conduct a return to flight mission from the Wallops 
Flight Facility. Thanks to the administration's decision to 
invest in American industry and to this subcommittee's full 
funding in last year's budget, Boeing and SpaceX continue to 
make great progress towards certification in 2017 to safely 
transport our astronauts to the Space Station from U.S. soil, 
ending our sole reliance on Russia once and for all.
    NASA is making significant progress on the Journey to Mars, 
developing our newest, most powerful rocket ever built, the 
Space Launch System, and the Orion crewed vehicle, as part of a 
sustainable and affordable deep space exploration system.
    This budget supports the agency's baseline commitment for 
an un-crewed test flight of the SLS and Orion in 2018, and a 
crewed flight by 2023. With the additional funding provided by 
Congress, the teams are working toward an earlier launch date 
for the first crewed mission.
    The budget also increases funding for habitation systems 
development, a key component of our stepping stone strategy to 
send humans to Mars. The President's budget funds a robust 
science program with dozens of operating missions studying our 
Solar System, the Universe, and the most important planet in 
our Solar System--Earth.
    This coming July 4, Independence Day, the Juno spacecraft 
will orbit Jupiter, while the Cassini spacecraft will prepare 
to execute its dramatic grand finale orbits of Saturn. OSIRIS-
REx will launch to a near-Earth asteroid to collect a sample 
for return to Earth in 2023. In 2017 and 2018, NASA will launch 
seven exciting science missions, including the James Webb Space 
Telescope. Before we send humans to Mars, robots are paving the 
way, with Mars InSight, now targeted for launch in 2018, 
another Mars Rover set to launch in 2020, joining the Curiosity 
and the Opportunity rovers now exploring the Red Planet, and 
work is underway to define the next Mars mission for 2022.
    We are formulating missions to explore Jupiter's moon, 
Europa, and WFIRST, and accelerating the building of Landsat 9 
as part of our Sustainable Land Imaging architecture to 
continue our 40 year record of high quality measurements of 
Earth's land cover.
    NASA technology drives exploration. With this request, NASA 
will continue to conduct rapid development and incorporation of 
transformative space technologies to enable future human and 
robotic missions, increase capabilities of other U.S. agencies, 
and address aerospace industry challenges.
    Space technology investments will ensure that we continue 
to lead the world in exploration and scientific discovery.
    NASA's Aeronautics program advances U.S. global leadership 
by developing and transferring key enabling technologies to 
make aviation safer, more efficient, and more environmentally 
friendly. With this request, NASA Aeronautics is ready to take 
the next step, to develop and fly X-plane demonstrators in 
partnership with industry and academia, including ultra-
efficient subsonic transport experimental aircraft, and the 
world's first low boom supersonic flight demonstrator.
    Mr. Chairman, we appreciate the support we have received 
from this subcommittee during my tenure, and I look forward to 
your questions.
    [The statement follows:]
           Prepared Statement of Hon. Charles F. Bolden, Jr.
    Mr. Chairman and members of the subcommittee, I am pleased to have 
this opportunity to discuss NASA's fiscal year 2017 budget request. The 
President is proposing a fiscal year 2017 budget of more than $19 
billion for NASA, building on the strong and consistent support NASA 
has received from this subcommittee and the Congress. This request, 
which includes both discretionary and mandatory funding, will allow 
NASA to continue to lead the world in space through a balanced program 
of exploration, science, technology, and aeronautics research.
    Of note, within this request, NASA is proposing a 10-year plan that 
would significantly accelerate aeronautics research. We seek support 
from congress for a substantial increase in funding for aeronautics 
that will support a vigorous flight demonstration program to 
demonstrate and validate technologies to dramatically improve the 
aircraft of the future. We are ready to test these technologies and 
concepts as integrated systems by developing ``X-plane'' demonstrators. 
The United States leads the world in aviation, but this leadership can 
only be maintained by a vigorous program of research to create the 
efficient aircraft of the future.
    NASA is positioned for a vibrant future, and we look forward to the 
long term support that will enable the Agency to continue leading the 
world into space and on the journey to Mars. We are on track for the 
key near-term steps on that journey with flight certification of our 
commercial crew transportation systems in 2017, and the launch of 
Exploration Mission 1 (EM-1) in 2018. In 2016, the Juno Spacecraft will 
orbit Jupiter while Cassini will execute its dramatic ``Grand Finale'' 
orbits of Saturn. The Solar Probe Plus (SPP), Transiting Exoplanet 
Survey Satellite (TESS) and the James Webb Space Telescope (JWST) are 
on track to launch in 2018, and a new Mars rover is in development for 
a 2020 launch on its way to join the spectacular Curiosity rover now 
exploring the planet. NASA's missions are providing the critical data 
we need to understand the home planet, our nearby star, every planet in 
the solar system, and the universe. We are accomplishing all this while 
consistently improving program performance: GAO reports that overall 
development cost growth for the portfolio of major development programs 
it tracks, excluding the James Webb Space Telescope (JWST), fell to 1.3 
percent, at or near the lowest levels we have reported since GAO began 
annual reviews in 2009. Relying on the consistent support of Congress, 
the Agency remains on a sustainable path to accomplish a world-leading 
program of exploration and discovery in space. The Agency is well 
positioned to continue on its long-term mission, and, by focusing on 
executing the plan we have laid out, we intend to earn the continued 
support of future administrations and Congresses for this plan.
                    human exploration and operations
    The fiscal year 2017 President's budget request continues NASA's 
Journey to Mars, extending our reach in space with the specific goal of 
sending human missions to Mars, and the broader aim of establishing a 
sustainable human presence beyond Earth. NASA's exploration strategy is 
to evolve from today's Earth-reliant posture to conducting missions in 
the Proving Ground of cislunar space and then to the Earth-independent 
capability needed to extend human presence into the solar system and to 
the surface of Mars. The fiscal year 2017 request includes $3,336.9 
million for Exploration, with $2,859.6 million for Exploration Systems 
Development, and $477.3 million for Exploration Research and 
Development. The fiscal year request also includes $5,075.8 million for 
Space Operations, including $1,430.7 million for the International 
Space Station (ISS), $887.4 million for Space and Flight Support, and 
$2,757.7 million for Space Transportation--both commercial crew system 
development and on-going crew and cargo transportation services that 
resupply ISS.
    The first step on the Journey to Mars is our current activity in 
low Earth orbit (LEO), where research and technology development 
activities conducted aboard ISS are delivering the knowledge we need to 
keep our astronauts safe, healthy and productive on deep-space missions 
of increasing durations. ISS research is advancing the fundamental 
biological and physical sciences for the benefit of humanity, improving 
life on Earth and adding to our understanding of the universe. The ISS 
is the cornerstone of our exploration strategy, a nearby outpost in 
space where humanity is taking its early steps on its journey into the 
solar system, and we appreciate the action Congress took last year to 
authorize continued Station operations through at least 2024, 
consistent with the President's request.
    Under the Commercial Resupply Services (CRS) contracts, our two 
commercial cargo partners, Space Exploration Technologies (SpaceX) and 
Orbital ATK, have demonstrated not only the ability to provide cargo 
deliveries to ISS, but also the flexibility to recover effectively from 
mishaps. Both companies have worked closely with NASA to understand the 
anomalies they experienced over the last year and a half. In developing 
the launch vehicles for their cargo spacecraft, SpaceX and Orbital ATK 
have also helped to bring some of the commercial satellite launch 
market back to the U.S., and helped to lower commercial launch costs. 
This January, through CRS-2, NASA contracted with SpaceX, Orbital ATK, 
and Sierra Nevada Corporation to ensure that critical science, research 
and technology demonstrations will be delivered to the ISS from 2019 
through 2024. Our commercial crew partners, SpaceX and the Boeing 
Company, are developing the Crew Dragon and CST-100 Starliner 
spacecraft, respectively. The work, being done under two Federal 
Acquisition Regulation (FAR)-based, fixed-price Commercial Crew 
Transportation Capability (CCtCap) contracts, is expected to result in 
flight certification of their crew transportation systems by the end of 
calendar year 2017. In 2015, NASA ordered the initial post-
certification missions, and in 2016, milestone completion and work are 
progressing well. Two thousand seventeen will be an exciting and 
challenging year as we work with our partners to launch the first new 
human spaceflight capability in a generation.
    Under the auspices of the ISS National Laboratory, managed by the 
Center for the Advancement of Science In Space (CASIS), NASA is 
encouraging broader use of the ISS by non-traditional companies and 
other Government agencies. The ISS National Lab has reached full 
capacity for allocated crew time for research that was both 
scientifically and economically reviewed for terrestrial benefit.
    As we move out into the Proving Ground of cislunar space, we will 
employ new deep-space systems, including the heavy-lift Space Launch 
System (SLS), Orion crew vehicle, the Exploration Ground Systems (EGS) 
that support them, and new deep space habitation capabilities developed 
through public-private partnerships. We will also continue to invest in 
exploration research and development that will make future missions 
safer, more reliable, and more affordable. NASA's initial deep-space 
mission, EM-1, is on track to launch to a distant retrograde orbit in 
the Proving Ground around the Moon in 2018. In 2015, the Agency 
conducted a key decision point review of the Orion program, 
establishing an Agency baseline commitment level for Orion that 
supports a 2023 launch readiness date for EM-2. The fiscal year 2017 
budget fully funds the Agency baseline commitment level. In the initial 
phase of our Proving Ground operations, NASA will use this region of 
space to test and demonstrate flight and mission operations and staging 
of human-rated vehicles farther from Earth than ever before. Crewed 
Orion missions launched on the SLS in the 2020s will establish our 
capability to operate safely and productively in deep space.
    SLS and Orion are critical to human spaceflight beyond LEO. The 
NASA-Industry teams building SLS and Orion have made tremendous 
progress over the last year in building and testing vehicle components. 
For SLS, the Core Stage qualification and EM-1 flight barrels are 
awaiting vertical welding at the Michoud Assembly Facility (MAF), the 
RS-25 flight engines are all assembled and awaiting engine controller 
installation, and production of the final booster qualification motor 
is nearly complete. For Orion, the EM-1 Crew Module pressure vessel 
welding is complete, the European Service Module structural testing is 
in progress, and software testing is underway in the Integrated Test 
Lab. In EGS, Mobile Launcher structural mods are complete, the Vehicle 
Assembly Building High Bay 3 platforms are being installed, and Crawler 
Transporter mods are underway.
    Subsequent missions in the Proving Ground will target challenges 
and strategic knowledge gaps while helping develop the core 
capabilities necessary to expand human activity farther into deep 
space, culminating in demonstration of a long-duration (1-year plus) 
deep-space habitation capability, critical preparation for crewed 
missions to Mars. The fiscal year 2017 request includes the funding to 
support work on the required habitation systems. Our fiscal year 2017 
budget includes $90 million to support habitation systems development. 
This work includes the second phase of the Next Space Technologies for 
Exploration Partnerships (NextSTEP) Broad Agency Announcement, an 
effort to stimulate deep-space capability development across the 
aerospace industry. Through these initial public-private partnerships, 
NextSTEP partners will provide advanced concept studies, technology 
development projects, and significant measurements in key areas, 
including habitat concepts, environmental control and life support 
systems, advanced in-space propulsion, and small spacecraft to conduct 
missions related to Strategic Knowledge Gaps. The NextSTEP efforts are 
a key component of our overall strategy to move into the Proving 
Ground.
    NASA will continue to develop the Asteroid Redirect Mission. This 
will include a robotic mission that will remove a multi-ton boulder 
from a target asteroid and use solar-electric propulsion to move the 
boulder into lunar orbit. A human mission using the SLS and Orion 
vehicles will then rendezvous with and take samples from this 
asteroidal mass. The mission demonstrates the use of advanced solar-
electric propulsion, automated rendezvous and complex crew operations 
in the Proving Ground of lunar orbit, and improves NASA's ability to 
identify and respond to potentially dangerous asteroids.
                            space technology
    NASA's fiscal year 2017 request includes $826.7 million for Space 
Technology to conduct rapid development and incorporation of 
transformative space technologies to enable NASA's future missions, 
increase the capabilities of other U.S. agencies, and address aerospace 
industry challenges. NASA's Space Technology program has developed a 
diverse portfolio creating a technology pipeline to solve the Agency 
and Nation's most difficult challenges in space. Space Technology will 
continue to prioritize ``tipping point'' technologies and early-stage 
innovation with approximately 600 awards to industry and small 
businesses, private innovators, and academia to spark new ideas for the 
benefit of NASA as well as the broader U.S. aerospace and high tech 
sectors. As efforts complete, appropriate technologies will be 
transferred and commercialized to benefit a wide range of users 
ensuring the Nation realizes the full economic value and societal 
benefit of these innovations. Technology drives exploration by 
continuing maturation of enabling technologies for future human and 
robotic exploration missions including deep space optical 
communications to return more data and improve operations; improved 
carbon dioxide removal and oxygen recovery systems for more efficient 
life support and environmental control capabilities; nuclear thermal 
propulsion technologies for rapid in-space transit; robotics and 
autonomy to reduce mission cost and risk; and advancements in remote 
sensing instruments and spacecraft subsystems to reduce size, weight 
and power requirements enabling lower cost missions utilizing small 
spacecraft.
    The program will take a major step early next year with the launch 
of the Green Propellant Infusion Mission (GPIM). GPIM will demonstrate 
on-orbit a propellant that has higher performance and is much safer to 
handle than the hydrazine fuel that is now commonly used for in-space 
propulsion systems.
    In fiscal year 2017, building on the Robotic Refueling Mission 
technology demonstrations on ISS, the program will continue mission 
formulation for Restore-L, a mission to advance and demonstrate the 
capability to service and refuel satellites on orbit with the potential 
to add life to existing satellites worth billions of dollars.
    In support of the Asteroid Redirect Robotic Mission (ARRM), Space 
Technology continues development of high-powered solar electric 
propulsion technologies that will enable extremely efficient orbit 
transfer and accommodate increasing power demands for government and 
commercial satellites.
    Also in fiscal year 2017, the Mars Oxygen In Situ Resource 
Utilization Experiment (MOXIE) payload on the Mars 2020 mission will 
hold a Critical Design Review. The payload will demonstrate the in situ 
production of oxygen on Mars, a technology that could furnish oxygen 
for breathing and fuel on future Mars missions. The Laser 
Communications Relay Demonstration project will complete its Critical 
Design Review and Key Decision Point--C, and will continue hardware 
fabrication to support a late calendar year 2019 launch readiness date.
                                science
    NASA's science vision is to use the vantage point of space to 
achieve with the science community and our partners a deep scientific 
understanding of our home planet, the Sun and its effects on the solar 
system, other planets and solar system bodies, the interplanetary 
environment, and the universe beyond. The President's fiscal year 2017 
budget requests $5,600.5 million for NASA's Science program including 
$2,032.2 million for Earth Science, $1,518.7 million for Planetary 
Science, $781.5 for Astrophysics, $569.4 million for the James Webb 
Space Telescope, and $698.7 million for Heliophysics.
    From orbit, NASA satellites advance our knowledge of our dynamic 
and complex home planet, Earth. In addition to driving scientific 
discoveries, NASA Earth-observing research satellite missions collect 
essential measurements that serve national interests. Our NASA 
satellites monitor regional and global food and water security and air 
quality, support disaster response, and contribute to economic growth. 
Nineteen NASA research missions--five of which were launched in a span 
of 11 months from 2014 to 2015--are orbiting the Earth and providing 
key measurements today. The Global Precipitation Measurement mission 
has already produced the first global rain and snowfall map, and the 
constellation routinely observes precipitation over the entire globe 
every 2-3 hours. The ISS Rapid Scatterometer, the first science payload 
to be robotically assembled in space since the ISS itself, measures 
surface ocean wind speeds and directions. And the Soil Moisture Active 
and Passive mission provides global, high-accuracy soil moisture and 
sea-surface salinity measurements at 35 km resolution.
    In 2016, three launches will add significantly to our capabilities. 
On January 17, NASA launched the Jason-3 satellite, a mission led by 
NOAA and EUMETSAT, along with our French partner CNES. Jason-3 is the 
fourth mission in a U.S.-European series using precision altimetry to 
measure ocean surface topography--the hills and valleys of the ocean 
surface. Later in the year, the SAGE-III (Stratospheric Aerosol and Gas 
Experiment-III) instrument will launch to the ISS to obtain atmospheric 
trace gas profile data, including ozone measurements, with the 
Lightning Imaging Sensor as a secondary payload. In October, a 
constellation of eight micro-satellites called the Cyclone Global 
Navigation Satellite System (CYGNSS) will become NASA's first Earth 
Venture Mission small-sat constellation, to investigate the evolution 
of tropical cyclones and hurricanes. The fiscal year 2017 request 
supports development of new missions including the Ice, Cloud, and land 
Elevation Satellite-2 (ICESAT-2) and the Gravity Recovery and Climate 
Experiment Follow-on (GRACE-FO) that provide continuity for key long-
term measurements.
    NASA is building Landsat 9 as part of our Sustainable Land Imaging 
(SLI) architecture that will continue our Nation's accurate measurement 
of Earth's land cover. NASA and the U.S. Geological Survey (USGS) 
initiated Landsat 9 in March 2015 and it is being built as a near-copy 
of Landsat 8 for launch in the 2021 timeframe. The SLI program will 
work closely with industry to support and infuse advanced satellite, 
scientific instrument, and overall system technologies into future 
missions. The robust SLI architecture ensures that high-quality Landsat 
imagery, freely accessible in an open archive, will continue to be 
available for critical uses such as monitoring the irrigation of 
farmland in the American West.
    NASA's Astrophysics program continues to operate the Hubble, 
Chandra, Spitzer, Fermi, and Kepler space telescopes, the Stratospheric 
Observatory for Infrared Astronomy (SOFIA) airborne observatory, and 
other missions that together comprise an unrivaled resource for the 
study of our universe. NASA's next strategic Astrophysics mission, the 
James Webb Space Telescope, continues on schedule for its 2018 launch 
and remains within budget.
    With this year's request, NASA will continue developing the 
Transiting Exoplanet Survey Satellite (TESS) for launch in 2018. TESS 
will extend the pioneering exoplanet discoveries of the Kepler Space 
Telescope by looking for rocky exoplanets orbiting the nearest and 
brightest stars in the sky in time for Webb to conduct follow-up 
observations. During fiscal year 2017, NASA will also continue 
formulation of the Wide-Field Infrared Survey Telescope (WFIRST), the 
top priority for large-scale missions of the most recent National 
Academy of Science Decadal Survey in Astronomy and Astrophysics.
    With the fiscal year 2017 budget request, NASA will broaden its 
reach into the Solar System with increasingly capable missions and 
continue to produce a series of exciting achievements in planetary 
science. In one of the biggest stories of the past year, NASA's New 
Horizons spacecraft captured our imaginations by showing us the 
complexity of one of our most distant and smallest neighbors. And 
despite being far beyond Pluto now, the intrepid probe continues to 
send volumes of pictures and other data over a radio link to Earth 
stretching billions of miles. At the same time, the Juno spacecraft is 
on its way to Jupiter where it will achieve a first-ever polar orbit of 
the gas giant this July 4. And just 2 short months later, NASA's 
robotic asteroid rendezvous and sample return mission, dubbed OSIRIS-
REx, will launch to the near Earth asteroid, Bennu, where it will 
collect a sample for return to Earth in 2023. In late 2016, after more 
than 10 years of exploration, the Cassini spacecraft will begin a 
daring set of orbits called the Grand Finale that is, in some ways, 
like a whole new mission. The spacecraft will repeatedly climb high 
above Saturn's poles before probing the water-rich plume of the active 
geysers on the planet's intriguing moon Enceladus, fly by Titan, and 
then dive between the planet and its innermost ring 22 times. No other 
mission has explored this unique region so close to the planet. 
Moreover, the fiscal year 2017 request supports several other missions 
operating throughout the Solar System. These include the Curiosity 
rover at Mars, the Lunar Reconnaissance Orbiter, the Dawn spacecraft 
currently at Ceres, and the Mars Atmosphere and Volatile EvolutioN 
(MAVEN) orbiter.
    Looking to the future, the fiscal year 2017 request continues 
development of a new rover that in 2020 will carry seven carefully 
selected instruments to conduct exceptional science as well as for the 
first time ever, cache a Mars sample for a potential later return to 
Earth. The budget also continues formulation for a mission to Jupiter's 
moon, Europa, to explore the most likely host of current life beyond 
Earth. In addition, this year's request releases a new announcement of 
opportunity for NASA's New Frontiers Program and selects at least one 
new Discovery mission for development--ensuring this essential path of 
exploration for the next decade.
    NASA's Heliophysics program operates 18 active missions comprising 
28 spacecraft, called the Heliophysics System Observatory (HSO), to 
understand the Sun and its interactions with Earth and the solar 
system, including space weather. NASA continues to gain important 
insight from the HSO, including new observations from the 
Magnetospheric Multiscale (MMS) Mission, which entered full science 
mode September 1, 2015. The fiscal year 2017 request supports the 
continued development of the Solar Probe Plus (SPP) mission, planned 
for launch in 2018. SPP will fly closer to the Sun than any previous 
mission to study its outer atmosphere. The request will enable the 
continued development of critical instruments for the NASA-ESA Solar 
Orbiter Collaboration mission scheduled for launch in 2018. NASA will 
continue development of the Ionospheric Connection (ICON) and Global-
scale Observations of the Limb and Disk (GOLD) missions. ICON will 
investigate the interaction of solar forces and Earth's weather systems 
that drive extreme and unpredicted variability. GOLD will measure 
densities and temperatures in Earth's thermosphere and ionosphere to 
improve our understanding and potentially our predictive capabilities 
of activity in this region.
                              aeronautics
    NASA's Aeronautics program advances U.S. global leadership by 
developing and transferring key enabling technologies to make aviation 
safer, more efficient, and more environmentally friendly. With a 
request of $790.4 million for Aeronautics, NASA will initiate a bold 
series of experimental aircraft and systems demonstrations as part of 
the President's 21st Century Clean Transportation Plan. NASA has laid 
the groundwork for this initiative through years of research at the 
component level, through computer modeling, ground tests, and flight 
tests. In partnership with industry and academia, we have developed 
technologies and designs that have the very real potential to 
dramatically reduce fuel consumption, harmful emissions, and noise. 
NASA is ready to take the next step. With the fiscal year 2017 request 
we will move out on a plan to develop and fly ``X-plane'' 
demonstrators. We will demonstrate and validate transformative concepts 
and technologies as integrated systems in flight to meet the most 
challenging needs of aviation. NASA will begin the development of a 
series of ultra-efficient subsonic transport experimental aircraft, and 
initiate the detailed design and build of the world's first low boom 
supersonic flight demonstrator.
    NASA's request for Aeronautics also increases investment in 
developing revolutionary tools and technologies to support X-plane 
developments, enabling further advances for future transformative 
vehicle concepts, nurturing university leadership in innovation that 
will also foster and train the future workforce, and leverages non-
aerospace technology advancements.
    NASA will continue to advance research and development into the 
next generation air traffic management system to realize the full 
vision of Next Generation Air Transportation System (NextGen) NASA will 
complete a series of major flight tests to demonstrate significantly 
more efficient arrival and departure operations in full partnership 
with Federal Aviation Administration (FAA) and industry. NASA will also 
continue to lead the world for enabling safe Unmanned Aircraft Systems 
(UAS) operations by developing key technologies that will integrate UAS 
operations in the National Air Space and realize small UAS operations 
safely at low altitude operations.
    In conclusion, the program of exploration we propose to execute 
with the fiscal year 2017 request is the envy of the world, and should 
be a source of pride to the subcommittee, the Congress, and the 
American people. With constancy of purpose and consistent support from 
the Congress, we look forward to extending human presence into deep 
space, over the course of the next decade.
    Mr. Chairman, I would be pleased to respond to your questions and 
those of other members of the subcommittee.

                 NASA'S FISCAL YEAR 2017 BUDGET REQUEST

    Senator Shelby. Thank you very much. Administrator Bolden, 
the discretionary budget request proposes, which I mentioned in 
my opening statement, to cut SLS by $770 million, and Orion by 
$217 million. That is nearly $1 billion. These funds that NASA 
proposes to cut, I believe, are absolutely necessary under a 
constrained budget profile to continue progress toward a crewed 
launch as early as 2021.
    Without these funds, I believe NASA's ability to reach far 
beyond Earth's orbit is at risk of delay and cost escalation. 
The discretionary amounts being requested by the administration 
in 2017 do not even meet the agreed upon funding levels in the 
agency's decision documents.
    Asking for less invites delay, increased costs, and 
inefficient program management, I believe.
    A couple of questions to you. Why is NASA not even asking 
for the discretionary funding needed to achieve results at the 
confidence level set by the agency in their planning 
agreements, and secondly, how can you justify, if you can, the 
financial risk NASA is taking with this exploration program?
    Mr. Bolden. Mr. Chairman----
    Senator Shelby. I know you do not make all those decisions.
    Mr. Bolden. Yes, sir. Actually, NASA, in my estimation or 
from where I sit, is requesting a $19 billion budget for this 
coming fiscal year. I know that may sound trivial but I leave 
it up to the budgeteers and folk to determine where all the 
money comes through.
    I know my agreement with the Director of OMB and 
subsequently the President of the United States is we are 
requesting $19 billion for the NASA program.

                         RUSSIAN RD-180 ENGINES

    Senator Shelby. I want to get into another aspect. There 
has been a lot of debate over whether to limit the number of or 
to outright ban the Russian RD-180 engines that are used on 
rockets launched in the U.S. There are some who threaten to 
enact a total ban, which would seriously impact missions and 
capabilities for the national defense.
    What is rarely discussed is the impacts such drastic 
measures could have on NASA. Contractors from both commercial 
crew and commercial cargo missions intend to use the Atlas V 
rocket, which uses, as you know, the RD-180 engine, for 
resupplying the International Space Station. Science missions 
are also currently being designed with the intent of using the 
reliable capabilities of the United Launch Alliance (ULA) 
rockets.
    A couple of questions to you. If a comprehensive engine ban 
on purchasing Russian engines regardless of being designated as 
national security or scientific missions were successfully 
implemented, what would be the impact on NASA, and secondly, 
how confident are you that the number of RD-180 engines 
currently available will allow NASA to continue with its 
planned flights?
    Mr. Bolden. Mr. Chairman, I will answer the second question 
first. Well, let me say this. I am in full agreement with the 
testimony that Secretary James has given on numerous occasions. 
We commiserate with each other on a regular basis. She and I 
both agree that while we want to rid ourselves of dependence on 
the Russian rocket engine, it should be done in an orderly 
fashion----
    Senator Shelby. We all want to get rid of them, but we have 
to be measured in how we do it.
    Mr. Bolden. Exactly. I agree with that sentiment exactly, 
and that is the plea that we have made. We are counting on 
being able to get the number of engines that will satisfy the 
requirements for NASA to fly the Dream Chaser when it comes 
around in 2019, but more quickly, to fly the Boeing CST-100 
Starliner.
    I think American industry has risen to the occasion when 
you look at Blue Origin and Jeff Bezos and what he is doing 
with ULA and the team there, to help develop a new launch 
system. I think you have heard far too much that we do not gain 
by developing a rocket without a full system in which it is 
integrated.
    So, we support what Secretary James has said, which is we 
preach patience----
    Senator Shelby. That is also the position of the Secretary 
of Defense, is it not?
    Mr. Bolden. That is absolutely right.
    Senator Shelby. And also the Director of National 
Intelligence?
    Mr. Bolden. That is correct.
    Senator Shelby. And others.
    Mr. Bolden. That is correct. Secretary James in her new 
capacity as the Executive Agent for Space speaks for all of us 
in one regard, although she does not speak for civil space, but 
she and I are in lock step with what she has told the 
committees.

                     NASA NON-DISCRETIONARY REQUEST

    Senator Shelby. In the area of getting into non-
discretionary funding, nearly 5 percent of NASA's budget 
proposal is comprised of funding gimmicks, I believe, which are 
contingent upon tax increases and other legislation that is yet 
or maybe will never be enacted by Congress.
    With such a reliance on nondiscretionary spending to 
accomplish its goals, NASA would face difficult funding choices 
if the agency were to only receive the $18.26 billion in 
discretionary dollars that is requested.
    Significant impacts, I believe, would follow NASA's 
vehicles that enable the exploration plans of traveling to 
Mars. Other missions across NASA would likely be shut down, 
severely cut back, or not started at all.
    Questions, a couple of them. What specific legislative 
language are you sharing with the authorizing committee that if 
enacted would provide NASA with $773 million in funding?
    Mr. Bolden. Mr. Chairman, I will just say----
    Senator Shelby. That is a tough question, I know it is.
    Mr. Bolden. It is not a tough question at all. It is out of 
my league. My hope is that we will be able to continue to work 
with this subcommittee and the subcommittee in the House, which 
we have always tried to do, to come up with a way that we reach 
an appropriate amount of money for NASA's budget.
    As I said again, my submission to this subcommittee and the 
Appropriations Committee in the House is for $19 billion.
    Senator Shelby. Well, I think we have a lot of work to do 
in the subcommittee, but with Senator Mikulski's experience and 
help, maybe we can work through it. It is going to be 
difficult. Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman. Yes, 
I, too, have concern about the mandatory funding in the budget 
request because it sounds like it is ``mandatory.'' You know, 
for the folks back home who do not understand Washington speak 
and budget lingo, the way words mean what they do not mean in 
Washington; words either have no meaning or they have a 
different meaning. ``Mandatory'' means funding that is 
mandatory if we get the revenue, and that will be a stretch in 
the short time allocated.
    What I believe is the hallmark of this subcommittee has 
been the ``B'' word, bipartisan, working together, and also 
here, a balanced space program, assuring human space 
exploration, space science, aeronautics, and a reliable space 
transportation system.
    I think if we stay in our balanced system, we will be able 
to get through this.
    Mr. Administrator, I know that this, too, is your last time 
before this subcommittee or last scheduled time. I want to 
thank you for your service, both as a Marine Corps officer, as 
an astronaut, and now for the leadership that you have helped 
to provide NASA. You have literally been in the line of fire 
and gone where no people have gone on many occasions now.

                       JAMES WEBB SPACE TELESCOPE

    I want to ask a question about space science and the James 
Webb Telescope. It has to go right. This subcommittee was able 
to fix the Hubble, and it performed in a stunning way. The 
Hubble Telescope not only brought us great science, it brought 
us great prestige, and it also was an inspiration to young 
people.
    But we do not have the money now to go back and fix the 
James Webb Space Telescope. So, my question to you is, number 
one, are we on track for James Webb to go, because if it makes 
it, and I believe it can and it must, it will secure America's 
place in astronomy for the next 50 years.
    So, are we managing the project to maintain a 2018 launch? 
Do you have adequate resources to prevent problems including a 
scheduled reserve? Because if it breaks, I am not so sure we 
can fix it.
    Mr. Bolden. Senator, as I promised you when we met some 
years ago when I came before this subcommittee or I came before 
you to admit we had James Webb in trouble, that we were 
underfunded, and we had overestimated our ability to deliver a 
2014 launch then, I think, the agreement that we made was we 
would go back and take a look at it and bring you what we 
thought were reliable numbers.
    We are now well on course to deliver the James Webb Space 
Telescope to orbit in October of 2018. We have about a 7.5 
month--``pad'' is a bad word to use--contingency reserve, in 
terms of time on the schedule, so that means that we have the 
funds available to get it off on time.
    So, in a simple word, yes, we will deliver James Webb to 
its position, a million and a half kilometers from Earth, in 
October 2018.
    Senator Mikulski. Well, maybe we will go to that together.
    Mr. Bolden. Hopefully, we will.

                          SATELLITE SERVICING

    Senator Mikulski. It has to work. Another very bread and 
butter issue that I want to bring up is satellite servicing. As 
you know, this is being developed at Goddard Space Flight 
Center. Last year, we provided $133 million for satellite 
servicing to support the Restore mission, which will 
demonstrate the ability to service in-orbit government science 
satellites. This will not only be for NASA, but could also 
service things like weather satellites, where all they need is 
either a nudge to an orbit from which they have drifted out or 
to refuel.
    I am concerned that NASA has reduced the funding for 
satellite servicing in fiscal year 2017, and has also included 
a mandatory funding request. Could you tell us where we are 
with satellite servicing, because it is important for one, jobs 
at Goddard, open and transparent here, and second, it would 
really help refurbish other government satellites and could be 
an opportunity for lucrative and productive private sector 
work. Those companies in Maryland that build satellites say 
that if we could refurbish, we could save money and yet 
maintain productivity.
    Mr. Bolden. Yes, ma'am, I can. I think what you and I have 
discussed before is a program called Restore-L, that is being 
headed up by the Goddard Space Flight Center. It is in 
formulation right now. We have put $130 million toward the 
Restore-L program.
    We have moved it out of the Human Exploration and 
Operations Mission Directorate and into Space Technology, which 
is a place where it probably fits. We have had to make some 
sacrifices in Space Technology with some of the programs that 
we are now not able to do or will not be able to do on time.
    We are well on the way to delivering Restore-L and the 
satellite servicing mission.
    The other thing that we are getting from it is finding 
synergies with the Asteroid Redirect Mission, which is 
something that is a part of our Journey to Mars, if you will. 
So, we are finding that in working with industry and academia 
and entrepreneurs that we are learning a lot and we are gaining 
a lot by working on Restore-L.
    It is another thing that Restore-L has done, when you look 
back on the lessons that are learned from previous Shuttle 
missions, some people will remember a mission where we 
attempted to go and save a spent upper stage rocket using a 
probe, if you will, looked like a jousting stick, to go up in 
the rocket and bring it back to the Shuttle and eventually back 
to Earth.
    As a result of the preliminary work we have been doing on 
satellite servicing, Orbital ATK now, working with a company 
called ViviSat, right out in Beltsville, Maryland, has 
developed a satellite servicing device that we think when 
teamed with Restore-L will be able to cover--industry will be 
able to cover----
    Senator Mikulski. See, that is my whole point. It is 
government and industry together.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    Senator Shelby. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much for the 
excellent job you are doing as chairman of our subcommittee. I 
especially want to compliment Barbara Mikulski for her 
outstanding service on this subcommittee and how much we are 
going to miss her. It will not be nearly as much fun and 
probably not nearly as effective as it has been, but we will 
all work together and try to live up to the stature and credit 
you have reflected on this subcommittee.
    We appreciate the good work of the Administrator of NASA as 
well. I think this is one of those situations where our 
subcommittee has the opportunity to learn more about these 
programs under the jurisdiction of the subcommittee that have 
such long-lasting and far-reaching consequences. We need to get 
it right. We need to be sure that we understand the best that 
is in our national interest, and that we provide the funding 
that is needed for the important programs that come under the 
jurisdiction of this subcommittee.
    I really do not have any questions except to come here 
today to congratulate Barbara and thank our distinguished 
witness for his service. Thank you, sir.
    Mr. Bolden. Thank you very much.
    Senator Shelby. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. I, too, would like 
to add my voice of admiration and gratitude to Senator 
Mikulski. She is a wonderful champion for many things, one of 
which is NASA. So, thank you for the inspiration that you 
provide for us in the future and in this Senate.
    General Bolden, first of all, I would like to thank you for 
coming to West Virginia State University and delivering the 
graduation address. It was very much appreciated.
    Mr. Bolden. And I discovered a new NASA hero in Ms. 
Katherine Johnson, who was the recipient of the Presidential 
Medal of Freedom this past year, and it was absolutely 
incredible having an opportunity to meet a real American hero 
like that.

                           ROBOTIC TECHNOLOGY

    Senator Capito. Great. Well, thank you. I wanted to follow 
up on one of the questions that Senator Mikulski was asking on 
the satellite servicing capabilities. Some of that work is 
done--obviously, most of it is done at Goddard, but some of it 
is done at the West Virginia Robotic Technology Center in West 
Virginia, as the lead academic institution.
    You know, I kind of did not hear your answer, there is a 
small cut to this program? No?
    Mr. Bolden. No, ma'am. That was a point that Senator 
Mikulski asked, were we funding it to the level that had been 
requested, which I think this year it is $130 million--it is 
$130 million in the next budget. It is fully funded. It is in 
formulation right now.
    The Center at West Virginia is also--that is an extension 
of Goddard and the robotic lab at the Goddard Space Flight 
Center, so the team there, it enables them to bring in graduate 
students, college students, and others to work in that field, 
but it is part of the program.
    Senator Capito. Thank you. Also, I would like to say that I 
was honored to attend the Sample Return Robot Challenge, winner 
level 2, which again was at WVU. They not only achieved the 
victory but received $100,000, which they are going to put back 
into scholarships for future students and to enhance their 
capabilities there.
    So, you and I have talked about how do we inspire future 
generations, and I think those challenges are always very 
inspirational.

                              HELIOPHYSICS

    Now, I am going to go way out on something I need you to 
educate me on. The President has proposed an increase in the 
area of heliophysics. Do not ask me to tell you exactly what 
that is. Can you give me an understanding of what the benefits 
of this program would be? Again, West Virginia University has 
faculty members that are involved in this program.
    Can you give me an understanding? I know it has some 
weather implications, so just a brief on heliophysics.
    Mr. Bolden. Heliophysics is the study of the Sun, and the 
big implication is space weather, something that you and I 
never heard of probably before 2 years ago or maybe real smart 
people like some of you did, but not me.
    It is the study of our Sun, and it is really trying to help 
us understand what potential impact solar flares, a phenomenon 
called coronal mass ejections, that are just big bursts of 
energy from the Sun, what would be the effect on our 
communications system, on all of our networks, since most 
things are space-based today. If that kind of energy made it 
through to the orbiting satellites, it could have an adverse 
impact.
    So, understanding the energy that is coming from the Sun, 
we know how to harden satellites now, things we probably did 
not think about before. It is critically important to 
essentially the satellite infrastructure of the Nation.
    Senator Capito. Well, I noticed in the explanation in your 
testimony that it involves some of the technologies that have 
been developed, getting closer to the Sun, being able to 
explore in a more detailed and innovative way. You have 
convinced me. That is good for me, to know more about the Sun.
    Mr. Bolden. That is what they told me.

                             STEM EDUCATION

    Senator Capito. Especially when it is shining, yes. Thank 
you. Just one last thing, and you and I talked about this 
again. I know it is a passion of yours, education. We are still 
falling short in our STEM education. I know NASA has been 
working with educational resources through EPSCoR in your Space 
Grant programs.
    I would just ask as a rededication from your position and 
certainly NASA's position to inspire that next generation we 
talked about, the low percentage of minorities and women in 
these fields. We talked about partnership, working together. 
Anything you can do or you think we can help with that, please 
make sure that we are there on the front with you.
    Mr. Bolden. Senator, I think one thing that is absolutely 
necessary is continued emphasis from people like you who have a 
voice to help us understand several things--the critical 
importance of STEM education in this Nation.
    I am not trying to be funny or trivial, but I believe NASA 
dedicates $19 billion in its 2017 budget to STEM education. 
Some people say how can that be. Well, when we launched Orion 
on December 5, 2014, it actually had a student experiment on 
it. That is something that a student normally would not get in 
a classroom.
    There was not a dime that came out of the education--the 
formal education budget. It all came out of our exploration 
budget, but that is STEM education. We are the only agency of 
the Federal Government, I think, that can say every dollar of 
our expenditures contributes to STEM education.
    The other area that we need help with is really encouraging 
people to take seriously the critical need to increase the 
numbers of women and minorities in the STEM fields. We are 
challenged.
    Senator Capito. Right.
    Mr. Bolden. We think we have some answers, but we do not 
have all the answers.
    Senator Capito. Well, as a zoology major in college, you 
could do other things with the science degree besides be the 
administrator at NASA. There is hope. Thank you.
    Mr. Bolden. Thank you.
    Senator Shelby. Senator Boozman.

                      EDUCATION AND EPSCOR FUNDING

    Senator Boozman. I would just like to follow up on Senator 
Capito's question about the funding for science. I appreciate 
what you are saying, what you do, and that there is an 
educational opportunity, but the reality is you are still 
cutting the Office of Education and the EPSCoR budget.
    So, can you talk a little bit specifically about that, and 
in a State like West Virginia and a State like Arkansas, that 
really does make a difference. It is not very many dollars at 
all, but it really is getting involved young people who are 
going to be the future of NASA as we go forward.
    I could say these are minimal dollars. I understand what 
you are saying in the other regard, but comment a little bit 
about the importance of the Office of Education and EPSCoR, and 
why we are cutting back. Like I said, those are not very many 
dollars at all, especially for states like Arkansas and West 
Virginia, our rural states.

                             FUNDING LEVELS

    Mr. Bolden. With funding being limited the way it has been 
since I became the NASA Administrator, it is essentially 
decreasing. As we have level budgets, that means it is 
decreasing. So, we have had to try to find innovative ways to 
continue to fund education in the manner that we did before, 
and one of the things that we have done at NASA is we 
consolidate inside the agency.
    The Science Mission Directorate is a good example. Rather 
than having every project responsible for managing its own 
little education program, those funds are consolidated in the 
Office of the Science Mission Directorate, and then it is the 
Science Mission Directorate head who decides which projects we 
are going to focus on for a particular educational initiative.
    So, we think what we are getting is more efficient 
application of our funds toward education, trying to do more 
with less, and I hate saying that because we are trying to be 
more efficient with the fewer dollars that we have.
    Senator Boozman. No, I understand the budget constraints. I 
understand what you are saying in efficiency, certainly want 
that. I think in this case, the reality is there will be less 
programs in the states that really are very important. It is 
not a lot of dollars, but I think it is one of those things 
when you look at dollars spent versus return, to society, 
return to your program, it is something that really is 
important.
    We do appreciate your hard work and appreciate the agency 
and all you represent. Thank you, Mr. Chairman.
    Senator Shelby. Senator Mikulski.

                 NASA'S FUTURE AND AMERICAN INNOVATION

    Senator Mikulski. Mr. Administrator, we could go through a 
lot of the line item questions, but I am concerned about 
America and its future. I am concerned about where the jobs are 
going to be and where our young people are going to work. Are 
these going to be jobs that pay living wages? This is why I am 
a big believer in American innovation.
    You and I talked about what generation we are from, we have 
seen great discovery, great jobs, but I will tell you, the 
anger we see in America right now is directly tied to the loss 
of jobs, as well as the loss of confidence in our institution.
    So, my question to you is how do you see this budget 
closing the innovation deficit? What is it that we are doing? 
Senator Capito's question is whether this is science for 
science's sake, which is a worthy goal, but where is it all 
going to take us?
    NASA, Goddard, and the Space Telescope Institute, we have 
three Nobel Prize winners, Dr. Giacconi, a founder of the Space 
Telescope Institute, Dr. John Mather at Goddard, and Dr. Adam 
Riess, who just won the Nobel Prize in physics.
    We win the Nobel Prizes, but I want to win the markets. So, 
where do you see two things, what are we promoting in 
innovation and what is in this budget and in your strategic 
plan to do in this Administration and transfer to the next, 
whoever that might be, so that we win the prizes and win the 
markets, so that our young people see that they have a future 
where we are going to continue to make something and make 
something of ourselves?
    Mr. Bolden. If you look at the budget, inside the Human 
Exploration and Operations Mission Directorate, there is a line 
item that is called ``habitation systems.'' Under habitation 
systems are a number of lesser projects that are all technology 
development and innovation, to help us be able to get humans to 
Mars.
    Another one of those things is called ``NextSTEP.'' That 
is, I want to say, 12 individual contracts that we let over 
this last year, among them, as a matter of fact, is some work 
to shore up the laboratory for Dr. Franklin Chang-Diaz with the 
VASIMR engine. We are talking about advanced in space 
propulsion.
    I think we are actually making small investments, 
incremental investments, in American industry but more 
importantly, in small businesses and entrepreneurial entities 
that are going to keep us on the cusp of being the innovation 
leaders in the world.
    I mentioned to you earlier, and hopefully every member of 
the subcommittee has a copy of our little flyer on the Future 
of Flight, or what we call ``New Aviation Horizons.'' This is 
all fueling the engine of innovation in the aeronautics 
community, the largest balance of trade item in this Nation.
    The reason that we are so excited about this, the reason 
American industry is so excited about it, is because it is 
returning NASA to the position where we are the leaders in 
aeronautic research and development, and we are again going to 
provide for more jobs, fuel the economy, and keep us in front 
of everybody else in the world.
    Senator Mikulski. Well, thank you very much. We have to 
stand up for the future.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Thank you, Senator Mikulski. If there are 
no further questions, the Senators may submit additional 
questions for the subcommittee's official hearing record for 
the NASA Administrator. We would request if those questions are 
sent to you, Mr. Administrator, they be answered within 30 
days.
    Mr. Bolden. Yes, sir.
    Senator Shelby. We appreciate your appearance today. We 
look forward to trying to work with you in putting this 
appropriation together.
    Mr. Bolden. Yes, sir. Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]
           Questions Submitted to Hon. Charles F. Bolden, Jr.
              Questions Submitted by Senator Thad Cochran
                   space launch system engine testing
    Question. Administrator Bolden, I am pleased that systems and 
engine testing continues to take place at Stennis Space Center for the 
Space Launch System. These tests represent important milestones in our 
efforts to reevaluate the United States' space exploration program. In 
recent years, this subcommittee has provided funding above the budget 
request to ensure the Space Launch System and associated test 
infrastructure are adequate to keep the program on schedule. Will NASA 
keep the Space Launch System on schedule by meeting the core-stage 
engine testing requirement at Stennis Space Center in 2017?
    Answer. Please see below an outline of planned work to be performed 
at Stennis Space Center (SSC) in fiscal year 2016 and fiscal year 2017. 
This includes preparation of the B-2 test stand at SSC in fiscal year 
2016 for Space Launch System (SLS) core stage testing, as well as the 
beginning of that testing in fiscal year 2017.
Stennis Space Center--Fiscal Year 2016 Plans
  --Perform five tests of RS-25D engine to support SLS.
  --Continue developmental and flight certification testing of 
        commercial engine systems on reimbursable basis.
  --Perform U.S. Air Force LOX/RP development testing supporting the 
        Air Force-funded Hydrocarbon Boost program.
  --Complete refurbishment of B-2 test stand to prepare for SLS core 
        stage testing.
  --Complete replacement of E Test Complex data acquisition system to 
        support test of sub-scale and component assemblies and engines.
Stennis Space Center--Fiscal Year 2017 Plans
  --Complete development of the special test equipment required to 
        support the SLS Core Stage.
  --Activate B-2 test stand for SLS Core Stage testing.
  --Begin testing SLS Core Stage on the newly refurbished B-2 test 
        stand.
  --Perform engine testing for Aerojet Rocketdyne RS-68 engine, Aerojet 
        Rocketdyne AR-1 engine, SpaceX and other commercial engine 
        developers.
  --Perform component testing for the U.S. Air Force LOX/RP test 
        program.
  --Perform facility modifications to the A-1 test stand necessary to 
        support future SLS RS-25E engine development.
                 nasa test stand infrastructure funding
    Question. Administrator Bolden, as you know, the Rocket Propulsion 
Test program maintains and manages a wide range of facilities all over 
the country used to test rocket engines and components. Would 
additional resources for these engine testing facilities help ensure we 
stay on time with the development of the next generation of rocket 
engine systems?
    Answer. The President's fiscal year 2017 budget request supports 
NASA's commitment to an SLS launch capability readiness date of 
November 2018 at 70 percent Joint Confidence Level (JCL). This includes 
the required testing for SLS. The request also enables NASA to maintain 
Rocket Propulsion Test infrastructure in a state of readiness to 
support the testing of other Government and commercial rocket engine 
systems. NASA and other agencies with rocket test requirements hold a 
monthly coordination meeting to ensure that the facilities maintained 
across the U.S. Government are sufficient to meet its collective 
requirements. At this time, there is no requirement for additional 
resources for NASA engine testing facilities.

                         CONCLUSION OF HEARINGS

    Senator Shelby. Thank you. The subcommittee is adjourned.
    [Whereupon, at 11:18 a.m., Thursday, March 10, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
